                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                       EXPORT-IMPORT BANK
                                                        of the UNITED STATES




      Report on Portfolio Risk and
     Loss Reserve Allocation Policies



                                                             September 28, 2012
                                                                  OIG-INS-12-02
To:         Fred P. Hochberg, President & Chairman
            Alice Albright, Executive Vice President & Chief Operating Officer
            David Sena, Senior Vice President & Chief Financial Officer

From:       Mark Thorum
            Assistant Inspector General for Inspections & Evaluations

Subject:    Report on Portfolio Risk and Loss Reserve Allocation Policies
            OIG-INS-12-02

Date:       September 28, 2012

I am pleased to provide you with a copy of the final evaluation report issued by the
Office of Inspector General (OIG) Portfolio Risk and Loss Reserve Allocation Policies
Inspection and Evaluation Report (OIG-INS-12-02), dated September 28, 2012
We found that:
        Ex-Im Bank lacks a systematic approach to identify, measure, price, and
        reserve for its portfolio risk.
        Ex-Im Bank lacks formal policies and procedures for its loss reserve
        forecasting model which clearly define roles and responsibilities, and
        provide for independent validation of the model’s integrity.
        Ex-Im Bank does not conduct portfolio stress testing in a systematic manner
        to assess potential exposures under challenging economic conditions.
        Ex-Im Bank does not self-impose portfolio concentration sub-limits or
        thresholds either by industry, geography, or asset class as internal guidance
        to inform management on risk and determine exposure fees in new
        transactions.
        Ex-Im Bank's current risk management framework and governance structure
        are not commensurate with the size, scope, and strategic ambitions of the
        institution.
In total, we made seven recommendations to improve Ex‐Im Bank’s loss reserve
allocation and portfolio risk management policies and to bring Ex‐Im Bank in line
with best practices. Management concurred with four of the seven findings and
recommendations; three remain open.
We appreciate the courtesies and cooperation provided to the OIG staff during the
process. If you have any questions about this report, please call me at 565-3908.
Attachment



                   811 Vermont Avenue, NW Washington, D.C. 20571
                         Report on Portfolio Risk and Loss Reserve Allocation Policies
                                    Inspection and Evaluation Report OIG-INS-12-02
                                                                 September 28, 2012



Why We Did This Report                    What We Found
Ex-Im Bank Office of Inspector
                                              Ex-Im Bank lacks a systematic approach to identify,
General (OIG) evaluated Ex-Im
                                              measure, price, and reserve for its portfolio risk.
Bank’s loss reserve allocation and
portfolio risk mitigation policies to         Ex-Im Bank lacks formal policies and procedures for
determine whether Ex-Im Bank’s                its loss reserve forecasting model which clearly
policies are sufficient to support its        define roles and responsibilities, and provide for
current and long-term growth                  independent validation of the model’s integrity.
objectives, while providing an
                                              Ex-Im Bank does not conduct portfolio stress testing
adequate cushion for future credit
                                              in a systematic manner to assess potential exposures
loses. Ex-Im Bank’s portfolio has
                                              under challenging economic conditions.
grown by 65% since 2008.
                                              Ex-Im Bank does not self-impose portfolio
As an export credit agency, Ex-Im             concentration sub-limits or thresholds either by
Bank faces a diverse spectrum of              industry, geography, or asset class as internal
risks including credit risk, interest         guidance to inform management on risk and
rate risk, portfolio concentration            determine exposure fees in new transactions.
risk, foreign-currency risk, and
                                              Ex-Im Bank's current risk management framework and
operational risk. Moreover, over
                                              governance structure are not commensurate with the size,
the past five years, Ex-Im Bank has
                                              scope, and strategic ambitions of the institution.
experienced rapid portfolio
growth, emerging risk trends, and
changes in the composition of its         What We Recommend
portfolio against the back drop of a
difficult economic environment.
                                              Develop a systematic approach to identifying, measuring,
                                              pricing, and reserving for portfolio risk, including the use
Our Approach                                  of qualitative risk factors in its loss reserve model.
                                              Conduct stress testing at least annually to understand
Our evaluation benchmarks Ex-Im
                                              how its portfolio would react to different economic
Bank’s loss reserve and portfolio
                                              scenarios and determine whether loss reserves are
risk mitigation policies with
                                              adequate under those scenarios.
private industry best practices,
other federal credit agencies, as             Implement soft portfolio concentration sub-limits to
well as U.S. and international                inform future pricing, risk management decisions, and
regulatory guidance for                       business development strategies.
systemically-important banking
                                              Create the position of Chief Risk Officer to oversee the
institutions.
                                              design and implementation of an agency-wide risk
                                              management function, including development of an
                                              over-arching risk management policy.


                                         For additional information, contact the Office of the Inspector General at
                                         (202) 565-3939 or visit www.exim.gov/oig.
                                                       TABLE OF CONTENTS

Executive Summary.............................................................................................................................................. 2

I. Background ...................................................................................................................................................... 4
            Ex-Im Bank Loss Reserve Process .................................................................................................... 5
            Ex-Im Bank’s Risk Trends.................................................................................................................... 5

II. Findings and Recommendations.............................................................................................................. 8
            Finding A: Ex-Im Bank lacks a systematic approach to identify, measure, price, and
            reserve for its portfolio risk................................................................................................................ 8
            Finding B: Ex-Im Bank lacks formal policies and procedures for its loss reserve
            forecasting model which clearly define roles and responsibilities and provide for
            independent validation of the model’s integrity ..................................................................... 14
            Finding C: Ex-Im Bank does not conduct portfolio stress testing in a systematic
            manner to assess potential exposures under challenging economic conditions. ....... 16
            Finding D: Ex-Im Bank does not self-impose portfolio concentration sub-limits
            either by industry, geography, or asset class as internal guidance to inform
            management on risk and determine exposure fees in new transactions ...................... 19
            Finding E: Ex-Im Bank's current risk management framework and governance
            structure are not commensurate with the size, scope, and strategic ambitions of the
            institution ............................................................................................................................................... 22

III. Evaluation Objectives, Scope, and Methodology ............................................................................ 27

Appendix A. Summary of Ex-Im Bank Balance Sheet Trends and Risk Factors........................ 29
            Table 1: Ex-Im Bank’s Sovereign vs. Private Exposure ........................................................ 29
            Table 2: Ex-Im Bank’s Portfolio Exposure to Geographic Regions .................................. 29
            Table 3: Ex-Im Bank’s Portfolio Exposure to Industry Sector ............................................ 30
            Table 4: One Obligor Concentrations .......................................................................................... 30
            Table 5: Predictor Interval Levels per Product Line ............................................................. 31

Appendix B. Federal Credit Reform Act & Regulatory Framework ............................................... 32

Appendix C. Comparison of Loss Reserve Methodology.................................................................... 34

Appendix D. List of Acronyms ...................................................................................................................... 35

Appendix E. References .................................................................................................................................. 36

Appendix F. Management Response .......................................................................................................... 38

Acknowledgements ........................................................................................................................................... 39
EXECUTIVE SUMMARY
Export-Import Bank of the United States (Ex-Im Bank or Ex-Im) is an independent federal
agency and wholly-owned government corporation whose mission is to aid export
financing to maintain or create U.S. jobs. Ex-Im Bank’s Charter authorizes it to engage in
“general banking business” (except that of currency circulation). Its core financing
programs are direct loans, export credit guarantees, working capital guarantees, and
export credit insurance. The Charter requires “reasonable assurance of repayment” for all
Ex-Im Bank transactions, which are backed by the full faith and credit of the U.S.
Government. Ex-Im Bank has functioned on a self-sustaining basis since 2009, covering its
operational costs and provisioning for expected losses through loan loss reserves, funded
by the fees and interest it charges its customers.
As an export credit agency, Ex-Im Bank faces a diverse spectrum of risks including credit
risk, portfolio concentration risk, foreign-currency risk, interest rate risk, and operational
risk. Moreover, over the past five years, Ex-Im Bank has experienced significant portfolio
growth, emerging risk trends, and changes in the composition of its portfolio against the
backdrop of a challenging economic environment and a bid to increase export credit in
support of President Obama’s National Export Initiative.1 Therefore, it is of significant
importance that Ex-Im Bank has a robust risk management and governance framework to
achieve long-term success, operate on a self-sustaining basis, and protect U.S. taxpayers
from severe portfolio losses.
To begin addressing these risk management issues, Ex-Im Bank Office of Inspector General
(OIG) evaluated Ex-Im Bank’s loss reserve allocation and portfolio risk management
policies. The overall objective of our evaluation was to determine whether Ex-Im Bank’s
loss reserve and portfolio risk management policies are sufficient to support its long-term
growth objectives, while providing an adequate cushion for future credit loses.2
Our evaluation found that Ex-Im Bank should strengthen its loss reserve methodology and
forecasting model as well as its overall risk management governance framework. First, we
found that although Ex-Im Bank actively manages its credit risks through loss reserve
provisioning based on risk ratings of individual transactions, it lacks a systematic approach
to identify, measure, mitigate, and reserve for its portfolio risk (the sum credit risk of all
Ex-Im Bank obligations) based on both quantitative and qualitative or “environmental” risk
factors. Traditionally, Ex-Im Bank’s loss reserve methodology has been based solely on
quantitative factors (historical data) and has excluded qualitative or “environmental” risk
factors to account for portfolio risk, such as the significant levels of concentrations in its
portfolio (single obligor and industry concentrations), and changes in the composition of
the portfolio. As a result, Ex-Im Bank’s loss reserve methodology may have resulted in the
systematic under-reserving and underpricing of the portfolio risk.


 1   On January 27, 2010, President Obama announced the National Export Initiative with the goal of
     doubling exports by 2015. Ex-Im Bank’s President is part of the Export Promotion Cabinet, in charge of
     developing and coordinating the implementation of the NEI. See Executive Order 13534, which can be
     found at http://www.whitehouse.gov/the-press-office/executive-order-national-export-initiative.
 2   Section III contains additional details on the evaluation’s objectives, scope, and methodology.



                                                                                                              2
Second, although Ex-Im Bank has made substantial progress in refining its loss reserve
forecasting model, Ex-Im has not independently validated the model. Moreover, due to
historical deficiencies in Ex-Im Bank’s data reporting systems, the model has not included
certain empirical data about the performance of restructured and potentially impaired
assets. As a result, the reliability of model’s forecasting ability may have been potentially
reduced.
Third, we found that Ex-Im Bank does not perform portfolio stress testing or establish
portfolio concentration sub-limits. Consequently, Ex-Im may not be able to determine how
its portfolio would react to different market conditions, determine whether loss reserves
are adequate under such scenarios, or effectively manage concentration risk.
Finally, we believe that Ex-Im Bank's current risk management framework and governance
structure are not commensurate with the size, scope, and strategic ambitions of the
institution. For example, while Ex-Im Bank has a Credit Risk Officer, it lacks an official
responsible for managing the full spectrum of risks facing Ex-Im Bank, such as a Chief Risk
Officer, or an over-arching risk management policy that integrates these risks and
incorporates portfolio management best practices.
As part of our evaluation, we benchmarked Ex-Im Bank’s policies with private industry best
practices, other federal credit agencies, as well as U.S. and international regulatory
guidance for systemically-important banking institutions. In doing so, we recognize that
the operational objectives, risk appetites, and financial drivers of these diverse institutions
may differ substantially. Moreover, we note that U.S. and international banking regulatory
guidance does not specifically apply to Ex-Im Bank. Nevertheless, in our view,
benchmarking Ex-Im Bank with private sector practices, peer agencies, and U.S. and
international regulatory guidance provides insight on best practices related to risk
management. In light of these best practices, we made several recommendations to
address our findings. In general, we recommend that Ex-Im Bank should:
       Develop a systematic approach to identifying, measuring, pricing, and reserving for
       portfolio risk, including the use of qualitative or environmental risk factors in its
       loss reserve model.
       Conduct stress testing at least annually to understand how its portfolio would react
       to different economic scenarios and determine whether loss reserves are adequate
       under those scenarios.
       Implement soft portfolio concentration sub-limits to inform future pricing, risk
       management decisions, and business development strategies.
       Create the position of Chief Risk Officer to oversee the design and implementation
       of an agency-wide risk management function, including development of an
       over-arching risk management policy.




                                                                                                3
I.         Background
Ex-Im Bank is the official export-credit agency of the United States. Its mission is to
support the financing of U.S. goods and services in international markets, thus promoting
job creation in the United States. Ex-Im Bank accomplishes this task by assuming the credit
and country risks that private sector financial institutions are unable or unwilling to accept.
As a federal agency, Ex-Im Bank’s transactions are backed by the full faith and credit of the
U.S. Government. Therefore, Ex-Im Bank must safeguard taxpayer resources by ensuring a
reasonable assurance of repayment.

Ex-Im Bank’s principal programs are loan guarantees, direct loans, export credit insurance,
and working capital guarantees. In the past five years, Ex-Im Bank has witnessed a
substantial increase in these programs with total new authorizations growing 160 percent
from $12.6 billion in Fiscal Year (FY) 2006 to $32.7 billion for FY 2011.3 Similarly, total
portfolio exposure has grown by 24 percent to $99 billion as of May 2012, compared to
$75.2 billion in September 30, 2010. In addition, with the reauthorization of Ex-Im Bank’s
Charter in May 2012, Ex-Im Bank’s authority to extend credit has been increased from
$100 to $120 billion.4 This credit cap will be raised to $130 billion in FY 2013 and
$140 billion in FY 2014, provided Ex-Im Bank meets certain criteria - including a default
rate of less than two percent and certain reporting requirements.


                             Ex-Im Bank Portfolio Exposure
 $160

 $140

 $120

 $100
                                                                                   New Authorizations
     $80
                                                                                   Total Portfolio Exposure
     $60                                                                           Authority to Lend
     $40

     $20

      $0
           FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2012 FY 2013 FY 2014

           Source: Ex-Im Bank Annual Reports




 3    Ex-Im Bank Authorizes $3.4 Billion in Financing at Fiscal Year-End Supporting Over 20,000 U.S. Jobs,
      September 30, 2011, Ex-Im Bank Press Release, http://www.exim.gov/pressrelease.cfm/5BFB12B0-
      CCF4-B6E4-0546FC19AA3BE72D/.
 4    Export-Import Bank Reauthorization Act of 2012, H.R. 2072, 112th Cong (2011)



                                                                                                              4
Ex-Im Bank Loss Reserve Process
Ex-Im Bank determines and calculates its finance programs’ costs and loss reserve
provisions for expected losses, known as subsidy costs, in accordance with the Federal
Credit Reform Act of 1990 and guidance offered by the Office of Management and Budget
(OMB) Circular A-11 (Part 5-Federal Credit). This function is performed by Ex-Im Bank’s
Office of the Chief Financial Officer. Ex-Im Bank’s process for determining the loan loss
allowance for each fiscal year involves assessing the repayment risk of each individual
transaction, which includes both commercial and political risk factors, then calculating the
loss reserve based on the percentage of loss associated with the risk level assigned to the
credit. Ex-Im Bank re-estimates expected loss rates annually to account for actual activity
and changes in the financial and economic factors that affect repayment prospects over
time. In general, this loss reserve model process is retrospective in nature and based on
quantitative, historical loss data.

Ex-Im Bank’s Risk Trends
As a federal credit agency, Ex-Im Bank is exposed to a variety of risks, including credit risk,5
political risk,6 portfolio concentration risk,7 foreign-currency risk,8 and interest rate risk.9
Indeed, it has been frequently noted that a financing institution’s main business is that of
managing risk. In the last five years, Ex-Im Bank’s risk trends have changed in several
ways, including a decline in total loss reserves, an increase in impaired assets compared to
its total loss reserves, increased portfolio concentrations, and a migration from sovereign
to private sector exposure. Specifically:
         Decline in loss reserves: The last three years have witnessed a decline in the total
         loss reserves for loans, claims, guarantees, and insurance commitments. In FY 2010,
         the total loss reserve was $5.1 billion or 6.8 percent of total exposure. In FY 2011, it
         had declined to $4.1 billion or 4.6 percent of total exposure. As of March 31, 2012,
         the loss reserves stood at $4.05 billion or 4.4 percent of total exposure.



 5   Credit Risk is the risk that an obligor may not have sufficient funds to repay its debt or may be unwilling
     to pay even if sufficient funds are available.
 6   Political risk is the risk that payment may not be made to Ex-Im Bank, its guaranteed lender, or its
     insured party. This may result from the expropriation of the obligor’s property, war, or inconvertibility
     of the obligor’s currency into U.S. dollars.
 7   Portfolio concentration risk reflects the risk of the credit portfolio composition as opposed to risks
     related to specific obligors.
 8   Foreign exchange risk stems from an appreciation or depreciation in the value of the foreign currency in
     relation to the U.S. dollar. As Ex-Im Bank reports in U.S. dollars, it must adjust the dollar equivalent of
     the outstanding foreign currency balances as well as the reserves held against these assets. As of
     March 31, 2012, Ex-Im Bank had guaranteed over 100 foreign currency transactions with a total
     outstanding balance of $9.8 billion or 10.9 percent of total exposure.
 9   Because Ex-Im Bank provides fixed-rate financing via its direct loan program, Ex-Im Bank incurs interest
     rate risk with respect to the medium- and long-term programs. Interest rate risk reflects the potential
     for interest rates to rise after rate setting by Ex-Im Bank on the authorization date, but prior to actual
     funding under the facility.



                                                                                                                   5
        For comparison purposes, Basel III sets a new target capital ratio of 7.0 percent to
        be phased in from January 2013 through to January 2019. The new requirement
        consists of a core component of 4.5 percent plus a new buffer of a further
        2.5 percent to reserve for unforeseen losses. Banks whose capital falls within the
        buffer zone will face restrictions on paying dividends and discretionary bonuses, so
        the rule sets an effective floor of 7 percent.10
        Impaired assets: An impaired asset is defined as any credit that is in payment
        default or with an internal risk rating, known as the Budget Cost Level (BCL), of 9 or
        higher on a scale of 1 to 12, the riskiest of all credits. The 2009-2010 period
        witnessed an increase in Ex-Im Bank’s impaired asset ratio. Defined as the ratio of
        impaired assets to loss reserves, the ratio increased from 74 percent in FY2009 to
        85 percent in FY2010. With the write-off of $774.5 million of impaired assets
        related to Paris Club restructurings, the ratio declined to 67 percent for FY2011. As
        of Quarter II FY 2012, the ratio stood at 69 percent.
        Ex-Im Bank typically reported impaired assets, but it stopped reporting in the
        second quarter of FY 2011, as it is not required to do so under applicable federal
        accounting standards 11
        Portfolio concentration risk: Ex-Im Bank’s portfolio is subject to concentration risk
        on three fronts: by country, industry, or obligor (debtor). Ex-Im Bank’s country risk
        exposure remains concentrated in two geographic regions: Asia (36.9 percent) and
        Latin America (22.1 percent). These regions accounted for 59 percent of the total
        portfolio in FY 2011. Credit exposure is highly concentrated by industry as well,
        with three industries – aircraft (48 percent), manufacturing (14 percent), and oil
        and gas (12 percent) – accounting for 74 percent of total exposure in FY 2011. Of
        the three industries, aircraft had risen to 51 percent of total exposure as of March
        31, 2012. Finally, single borrower concentrations are also significantly high when
        measured against total reserves. For example, Ex-Im Bank’s five largest, individual
        obligor exposures amount to $17.2 billion or 430 percent of total reserves as of
        March 31, 2012. See Appendix A, Tables 2-4.
        Shift from sovereign to private exposure: Credits guaranteed by foreign
        governments, or sovereign transactions, are less risky because the foreign
        government guaranteeing the transaction will step in to repay the credit if the
        original borrower defaults on its obligations. In the last several years, Ex-Im Bank
        has experienced a shift in its exposure from such sovereign transactions to
        transactions with private borrowers. Specifically, between FY 2007 and FY 2011,
        private exposure has steadily increased from 58 percent to 69 percent of Ex-Im


10   Basel III is a global regulatory standard on capital adequacy, stress testing, and market liquidity risk
     agreed upon by the members of the Basel Committee on Banking Supervision in 2010-11. U.S. banks will
     transition to Basel III with the implementation of the Dodd-Frank Wall Street Reform and Consumer
     Protection Act. For more information, see http://www.bis.org/publ/bcbs189.pdf.
11   OCFO management was advised in 2011 by Deloitte, the independent public accounting firm that
     conducts the agency’s financial statement audit, that Ex-Im Bank was not obligated to publish total
     impaired assets in its annual report under applicable federal accounting standards.



                                                                                                           6
Bank’s total exposure. This shift in exposure increases Ex-Im Bank’s inherent
portfolio risk by increasing Ex-Im Bank’s exposure to credits not guaranteed by
foreign governments. See Appendix A, Table 1.




                                                                                  7
II.      Findings and Recommendations
Finding A: Ex-Im Bank lacks a systematic approach to identify, measure, price,
and reserve for its portfolio risk.
Congress and OMB have created a framework used by federal credit agencies to calculate
and measure risk and program subsidy cost. This risk measurement approach has been
codified by the Federal Credit Reform Act (FCRA) of 1990, and implemented through OMB
Circular A-136 (financial reporting requirements), OMB Circular A-11 (the primary
guidance for calculating program costs associated with its transactions), and OMB Circular
A-129 (credit default policy guidance). Recognizing the agencies’ expertise and
responsibilities for administering their respective programs, OMB has delegated to the
agencies, subject to OMB’s review and approval, the responsibility for developing the
models and assumptions used to calculate program costs.12 In general, this framework
focuses on managing individual credit risks by assigning a risk rating to each transaction
and reserving based on an expected loss reserve model that relies mostly on historical data
analysis.13
Neither FCRA nor OMB, however, provide specific guidance on measuring and managing
risk at the portfolio level or the use of qualitative or “environmental” risk factors to account
for such risk in estimating losses. Portfolio risk can be defined as the maximum amount of
loss in the value of a credit portfolio within a specified time frame and confidence level. It
is largely determined using the individual asset volatilities and the aggregate asset
correlations (the degree to which assets tend to behave in relation to each other) in the
credit portfolio.
Studies have shown that if financial assets are correlated (either positively or negatively),
the probability-weighted loss of each loan calculated separately and then added together
would not yield the same result as calculating the probability–weighted loss of a portfolio
containing the same loans. For example, a negative correlation between two assets could
result in lower total losses as the volatility of one helps to offset the volatility of the other.
Conversely, highly correlated asset and industry classes in the portfolio could result in
higher volatility and higher losses. Therefore, it is important that financial institutions are
able to measure and mitigate portfolio risk to manage portfolio volatility in the case of
different economic scenarios.


International banking guidance has established the principle that banks should not only
manage individual credit risks, but also inherent risks at the portfolio level. In its Principles
for the Management of Credit Risk, the Basel Committee on Banking Supervision (BCBS), an
international forum for regular cooperation on banking supervisory matters (including the
Federal Reserve), states:



 12   For more information see
      http://www.whitehouse.gov/sites/default/files/omb/assets/a11_current_year/s185.pdf.
 13   See Appendix B for a more detailed discussion of this framework.



                                                                                                     8
         “Banks must have in place a system for monitoring the overall composition
         and quality of its credit portfolio. Traditionally, banks have focused on
         oversight of contractual performance of individual credits in managing
         their overall credit risk. While this focus is important, banks also need to
         have in place a system for monitoring the overall composition and quality
         of the various credit portfolios. This system should be consistent with the
         nature, size, and complexity of the bank's portfolios.”14
In addition, the importance of qualitative or “environmental” risk factors to account for
portfolio risk in estimating loss reserves has been underscored by U.S. banking regulators.
In a 2006 policy statement on the allowance for loan and lease losses (ALLL), U.S. banking
regulators stated:
         “Estimated credit losses should reflect consideration of all significant
         factors that affect collectability of the portfolio as of the evaluation date.
         Normally, an institution should determine the historical loss rate for each
         group of loans with similar risk characteristics in its portfolio based on its
         own loss experience for loans in that group. While historical loss
         experience provides a reasonable starting point for the institution’s
         analysis, historical losses, or even recent trends in losses, do not by
         themselves form a sufficient basis to determine the appropriate level for
         the ALLL.      Management should also consider those qualitative or
         environmental factors that are likely to cause estimated credit losses
         associated with the institution’s existing portfolio to differ from historical loss
         experience.”15 (Emphasis added.)
The policy statement also advises financial institutions to adjust the historical loss
experience for the effects of such qualitative or environmental factors, such as the effect of
any concentrations of credit and changes in the level of such concentrations. Indeed, the
Office of the Comptroller of the Currency (OCC) has cited excessive concentrations of
credit - “pools of exposure” - as a key factor in banking crises and failures noting that
“when exposures in a pool are sensitive to the same economic, financial, or business
development, that sensitivity, if triggered, may cause the sum of the transactions to
perform as if it were a single, large exposure.” Therefore, the OCC advises that
management implement “internal processes designed to identify, measure, monitor, and
control concentrations of credit” and that such analysis be addressed in a bank’s ALLL.16


 14   Basel Committee on Banking Supervision, “Principles for the Management of Credit Risk”, September
      2000, p. 16. This document can be found online at http://www.bis.org/publ/bcbs75.pdf.
 15   Interagency Policy Statement on the Allowance for Loan and Lease Losses. The Office of the Comptroller
      of the Currency, the Board of Governors of the Federal Reserve System, the Federal Deposit Insurance
      Corporation, and the Office of Thrift Supervision, National Credit Union Administration redrafted their
      1993 policy statement on the allowance for loan and lease losses (ALLL) to ensure consistency with
      generally accepted accounting principles and recent supervisory guidance. This document can be found
      at http://www.federalreserve.gov/boarddocs/srletters/2006/SR0617a1.pdf.
 16   OCC, “Concentrations of Credit” December, 2011. This document can be found at
      http://www.occ.gov/publications/publications-by-type/comptrollers-handbook/Concentration-HB-
      Final.pdf.



                                                                                                            9
Interviews conducted with foreign export credit agencies confirm the practice of
identifying and measuring portfolio risk and adjusting loss reserve models to reflect a
balance of quantitative and qualitative risk factors.17




Ex-Im Bank calculates the probability-weighted loss of each transaction separately,
following a “bottom-up” approach to risk measurement as prescribed by FCRA. Ex-Im
estimates the potential credit loss associated with each new credit based on the historical
performance of similar assets. The credit loss is defined as the net present value of
estimated loan, guarantee, and insurance defaults less subsequent estimated recoveries.
Management re-estimates the net credit loss of post credit-reform transactions annually in
accordance with OMB guidelines and Statement of Federal Financial Accounting Standards
(SFFAS) 18. The re-estimates adjust the allowance for credit losses to account for actual
activity and changes in financial and economic factors that affect repayment prospects over
time.
This approach measures risk from an individual asset perspective but fails to address the
incremental risks at the portfolio level. It presupposes no interaction among assets or
credit risks within the portfolio during times of severe financial stress. Co-variance among
assets, or the degree to which two distinct assets move together in any given economic
scenario, and other qualitative or environmental risk factors, such as concentration risks,
pose additional risks to Ex-Im Bank’s portfolio that are not presently identified and
measured. As a consequence, they are not adequately priced or reserved for.

  -
In addition, Ex-Im Bank has historically not included qualitative or environmental risk
factors in its loss reserve analysis or expected-loss credit model, nor has it adjusted its loss
reserve model to reflect the potential impact of these factors in a systematic manner. The
model utilizes an Excel-based, linear regression analysis that builds upon Ex-Im Bank’s
historical loss and recovery experience for each risk rating and product line. Under an
expected loss approach, provisions are set aside to cover the expected loss before evidence
of impairment. In this case, provisioning does not depend on any evidence of deterioration
in credit quality and is unrelated to the actual occurrence of losses. Ex-Im Bank establishes
a loss allowance through a provision charged to earnings. Subsequent write-offs are then
charged against the allowance, while recoveries are credited back to the allowance.
Ex-Im Bank’s loss ratio can be defined as the percentage loss that Ex-Im can expect for each
dollar of loan disbursement or guarantee provided. Expressed as an equation, it can be
defined as the following:
         Loss Ratio (LR) = Loss Given Default (LGD) x Probability of Default (PD)


 17   ECA respondents included Export Development Canada (EDC), SACE, Euler Hermes (Germany), Ex-Im
      Bank, Finnvera (Finland), Atradius (Netherlands), UK Export Finance (formerly ECGD), Export- Import
      Bank of Korea (K-Exim), Export Guaranty and Insurance Corporation (EGAP) (Czech Republic),
      EKF (Denmark), EKN (Sweden).



                                                                                                        10
The model relies on three key components: the probability of default, loss given default,
and predictor intervals.
         Probability of Default (PD): The PD can be defined as the probability that an obligor
         will default in its payment obligations as contractually stipulated in a financing
         document during a specified period. The probability of a default by a given obligor
         can be estimated from a historical database of actual defaults using common
         statistical techniques such as linear regression, or estimated from market price data
         for credit default swaps, bond prices, etc. Another frequently used technique is to
         examine the historical loss experience of external credit ratings such as
         Standard and Poor’s and Moody’s.
         Ex-Im Bank’s loss reserve model estimates the PD based on historical data, as of the
         prior fiscal year, for each Budget Cost Level (BCL) rating18 and for each of the
         following four product lines: long-term guarantees, medium-term guarantees,
         medium-term insurance, and short-term insurance. As there is insufficient
         empirical evidence to estimate the PDs for long-term and medium-term loans, Ex-Im
         Bank’s model uses the loss experience for the medium- and long-term guarantee
         programs as proxies.
         Loss given default (LGD): LGD can be defined as the credit loss incurred if an obligor
         defaults in its payment obligations. The loss amount is net of recoveries and
         discounted for the time value of money. It is dependent on both the cash flows from
         the borrower as well as the characteristics of the debt obligation including
         documentation, seniority, collateral (if any), etc. As with PD, the LGD is estimated
         for each BCL rating and for long- and medium-term guarantees, short- and
         medium-term insurance. The LGD for medium- and long-term loans are derived
         from the LGDs for medium- and long-term guarantees.
         Predictor intervals (PI): Predictor intervals are used to express the likelihood that a
         future observation (in Ex-Im Bank’s case, the future probability of default of a new
         transaction with a given BCL rating) will fall within a pre-determined range of
         values, given empirical evidence. The range is defined by upper and lower bounds.
         Combined with a confidence level, the PI refers to the average predictive success of
         the model. For example, a 95 percent PI would imply that the future probability of
         default of a transaction with a given BCL rating would (on average) fall within these
         bounds, 95 percent of the time.
Given its increased loss experience in FY 2009 and the continuing uncertainty of the global
financial crisis, Ex-Im Bank increased its predictor interval from the midpoint to 95 percent
for FY 2011. However, for 2012, the combination of a 17.5 percent decrease in the number
of claims in FY 2010 and further refinements to the loss reserve model led to
management’s decision to decrease the predictor interval for default from 95 percent to 85
percent across all product lines. Predictor interval levels were further reduced for FY 2013



 18   As prescribed by OMB’s Interagency Country Risk Assessment System (ICRAS), this is a rating that
      identifies the level of risk of each transaction in a sliding scale. This is further explained in Appendix B.



                                                                                                                  11
ranging from 70 percent for medium term guarantee and medium term insurance business
to 80 percent for both short term insurance and long term guarantee business.
Currently, Ex-Im Bank’s loss credit model does not include qualitative risk factors, such as
co-variance among asset classes or portfolio concentration risks, to account for risk at the
portfolio level in its loan loss reserves. In other words, Ex-Im does not reserve or price for
the incremental risk deriving from its portfolio concentrations. For example, although
aircraft transactions represent almost 51 percent of the total dollar out standings of Ex-Im
Bank’s balance sheet, each new airline transaction is structured and priced using the same
criteria and minimum pricing guidelines as any other aircraft transaction. Best practices
would suggest that an institution should take into account the incremental portfolio risk in
its pricing criteria.
An important lesson learned from the 2008 financial crisis was that purely quantitative
approaches to risk management were insufficient and that a more balanced approach that
incorporates qualitative risk factors enhances a financial model’s explanatory power and is
generally preferable to purely quantitative approaches. With the benefit of hindsight,
recent literature offers several explanations.
First, quantitative models may fail to capture the full extent of risk when the returns are
not normally distributed. Indeed, certain key risks that reside in the tails of the
distributions may be overlooked. Second, asset volatilities and correlations used in value-
at-risk models are derived from empirical data that reflect “normal” market conditions.
However, in times of a financial crisis, both volatility and correlation may increase
substantially.
In addition, previously undetected correlations among asset classes and the behavior of
market participants can lead to financial contagion during a severe crisis. Finally, as
quantitative models rely on empirical data, they may fail to recognize structural shifts in
the economy and financial markets. Based on the above factors, best practices now require
portfolio managers to adopt a disciplined balance between quantitative and qualitative risk
factors for their analysis.
Because Ex-Im Bank has not systematically identified and measured portfolio risk factors
in its loss reserve model, it may have systematically underpriced and consequently under-
reserved for these risks in its portfolio. This is of particular concern because, as noted
above, the total allowance for losses for loans, claims, guarantees and insurance
commitments has steadily decreased in the last three years. As of March 31, 2012, the
allowance for losses stands at $4.05 billion or 4.4 percent of total exposure down from
$5.1 billion or 6.8 percent of total exposure in FY 2010.

Recommendation:
   1) Ex-Im Bank should develop a systematic approach to identifying, measuring,
      pricing, and reserving for portfolio risk, including the identification of
      appropriate qualitative risk factors to account and reserve for such risk.
      Ex-Im Bank should incorporate these factors into its loss allowance analysis
      both retrospectively and prospectively. The former will ensure that Ex-Im
      Bank has properly reserved for existing exposure while the later will address
      future exposure.


                                                                                            12
Management Response:
     Ex-Im Bank agrees with the recommendation. Upon the conclusion of the
     FY 2011 audit, Ex-Im Bank evaluated the incorporation of qualitative factors
     to the components of the overall credit loss factors. Starting in
     December, 2011, Ex-Im Bank implemented a systematic approach on the
     development of Ex-Im’s annual credit loss factors. These credit loss factors
     incorporate qualitative factors which include measuring and reserving for
     portfolio risk. It is currently under review by Ex-Im Bank’s outside auditors
     and the OMB. As of September 18, 2012, Ex‐Im Bank has not received OMB
     approval on these revised credit loss factors. Upon approval, Ex-Im Bank
     expects to implement these new credit loss factors in September 2012 as
     part of the annual re‐estimate process.

Evaluation of Management’s Response:
      In periodic meetings with the Office of the Chief Financial Officer (OCFO),
      dating back to 2010, the OIG inquired about the exclusion of qualitative
      factors and the impairment that the absence of such may have on the loss
      reserve model’s predictive capability and represented a departure from best
      practices. OIG understands that Ex-Im Bank received approval from OMB on
      September 25, 2012 to implement the revised credit loss factors.
      Management’s proposed actions are responsive; therefore, the
      recommendation is resolved and will be closed upon completion and
      verification of the proposed actions.




                                                                                     13
Finding B: Ex-Im Bank lacks formal policies and procedures for its loss reserve
forecasting model which clearly define roles and responsibilities and provide
for independent validation of the model’s integrity.


U.S. financial regulators19 have cited components of a sound model risk management
program, including:
         1. Sound model validation process, including the confirmation of conceptual
            soundness, ongoing monitoring, process verification and benchmarking; and
            ongoing review of assumptions and an outcomes analysis, including
            back-testing.

         2. External validation of the model’s integrity, which is designed to confirm a
            model’s integrity and performance. Validation requires a degree of
            independence from model development and use. Ideally, validation should be
            undertaken externally by competent, impartial sources not responsible for
            developing the model.

         3. A formal system of governance, which establishes an effective framework with
            defined roles and responsibilities for clear communication of model limitations
            and assumptions, as well as the authority to restrict model usage.

  -

Although Ex-Im Bank has made substantial progress in developing its own loss reserve
forecasting model, the model’s integrity has not been externally and independently
validated and the historical exclusion of qualitative risk factors – coupled with prior
modeling errors20 – may have reduced the model’s predictive capabilities. Moreover, Ex-Im
Bank data reporting systems have not allowed for proper tracking of the performance of
restructured and potentially vulnerable assets as a separate cohort over time.

While restructured assets with a BCL of 9 or higher (the riskiest assets) have been
historically included in the list of impaired assets, Ex-Im Bank’s data reporting system lacks
the ability to separately monitor restructured assets with a resulting BCL of 8 or below
which, according to Ex-Im Bank’s internal rating system, represent a significant risk of loss


 19   Both the Federal Reserve Board and the Office of Comptroller of the Currency provide guidance on
      model risk management. For example, see OCC 2011-12, “Supervisory Guidance On Model Risk
      Management.” This guidance can be found online at
      http://www.occ.gov/news-issuances/bulletins/2011/bulletin-2011-12a.pdf. In addition, the Federal
      Reserve’s Letter SR 09-01, “Application of the Market Risk Rule in Bank Holding Companies and State
      Member Banks,” provides various standards for model validation and review and back-testing. This
      document can be found online at
      http://www.federalreserve.gov/boarddocs/srletters/2009/SR0901.pdf.
 20   For example, in a letter to the OIG dated December 6, 2011, OCFO management disclosed that a coding
      error was discovered in Ex-Im Bank’s estimate model.



                                                                                                            14
of interest and/or principal. As a result, empirical data on these risky assets have not been
used in Ex-Im Bank’s expected loss-reserve forecasting model, thereby potentially reducing
the reliability of the model’s forecasting ability.

Institutions conduct independent validations to avoid the use of partial or biased data that
would impact the model’s reliability and to assure the integrity of the model and the data
used.

Recommendation:
   2) Together with external subject matter experts, OCFO should design and
      implement a formal governance framework for the use of financial models.
      This framework should include policies and procedures for model-validation
      including external validation of the model’s integrity, model ownership and
      testing.

Management Response:
     Ex‐Im Bank agrees with the recommendation. Upon the conclusion of the
     FY 2011 audit, Ex‐Im began the process of designing and implementing a
     formal governance framework on Ex-Im Bank’s financial models. As part of
     this process, in May 2012, Ex‐Im Bank contracted with KPMG to review,
     assess, and evaluate Ex-Im Bank’s qualitative factors developed this year.
     KPMG served as external subject matter experts providing review, analysis,
     and feedback. Consistent with the KPMG review, Ex‐Im Bank will
     incorporate external validation of future financial models. It is also
     important to note that the overall model is currently under evaluation and
     review by both Ex-Im Bank’s outside auditors as well as the Office of
     Management and Budget. This review occurs on an annual basis. Ex-Im
     Bank, as part of its efforts to continuously improve, will build and strengthen
     the formal governance framework related to the financial models.

Evaluation of Management’s Response:
      In periodic meetings with the OCFO, the OIG discussed external validation of
      Ex-Im Bank’s loss reserve model by an independent external party. OCFO
      agreed to take this recommendation under advisement. Management’s
      proposed actions are responsive; therefore, the recommendation is resolved
      and will be closed upon completion and verification of the proposed actions.




                                                                                           15
Finding C: Ex-Im Bank does not conduct portfolio stress testing in a systematic
manner to assess potential exposures under challenging economic conditions.


In its Principles for the Management of Credit Risk, BCBS states that banks “should take into
consideration potential future changes in economic conditions when assessing individual
credits and their credit portfolios, and should assess their credit risk exposures under
stressful conditions.”
For the purposes of identifying best practices in portfolio risk management, the OIG
interviewed a broad group of credit portfolio risk managers from foreign ECAs, U.S. federal
agencies, and international financial institutions.21 The majority stated that they conduct
stress testing on their portfolios on a regular basis. In addition, OIG interviewed senior
management of the International Association of Credit Portfolio Managers (IACPM) to learn
more about private sector best practices. As an international association focused on
promoting best practices in credit portfolio management, IACPM has published a
compilation of sound practices as observed by its member institutions.22
IACPM states that an institution “should have a ‘top down’ stress testing process in place to
analyze the impact of extreme economic events on the credit risk of the overall credit
portfolio.” According to IACPM, the objective of stress testing measures is to “inform
management about the portfolio’s sensitivity to risk factors.” Stress testing falls into two
categories: scenario testing and sensitivity testing. Scenario testing “evaluates the impact
of particular events (deemed as stressed) on a portfolio.” In this approach, “one defines the
event, determines the impact on ‘stressed’ parameters such as PDs and LGDs” and
computes a loss measure. In contrast, sensitivity stress tests are “generally statistical in
nature” and “attempt to establish the impact of a change in one or more risk drivers or
parameters on a portfolio.”23
IACPM further notes that institutions “should supplement the ‘top down’ approach with a
‘bottom up’ stress testing process to measure the impact of adverse events on obligors, or
set of obligors, with significant exposures in the credit portfolio.” This approach is
particularly important for portfolios “that have high single-name concentrations” to
determine the impact “of events or scenarios on specific exposures or obligors.” By testing
for the potential impact of various risk factors on probabilities of default and loss given
default, management can assess loss reserve adequacy under different scenarios.


 21   ECA respondents included the official export credit agencies of Canada, Denmark, Finland, Germany,
      Italy, New Zealand, South Korea, Sweden, the Czech Republic, and the United Kingdom. U.S. federal
      agencies we contacted included the U.S. Department of Agriculture, Department of Energy, Small
      Business Administration, U.S. Agency for International Development, Millennium Challenge Corporation.
      Finally, we consulted the following three international institutions: the Inter-American Development
      Bank, the Multilateral Investment Guarantee Agency, and the Asian Development Bank.
 22   Sounds Practices in Credit Portfolio Management, International Association of Credit Portfolio
      Managers, November 2005. This publication can be found online at
      http://www.iacpm.org/about-us/IACPM_Sound_Practices.pdf.
 23   See id.



                                                                                                         16
Finally, the Federal Reserve Board recently issued a Supervision and Regulation Letter,
entitled “Guidance on Stress Testing for Banking Organizations with Total Consolidated
Assets of More than $10 Billion”, which provides guidance to banks on the importance of
stress testing.24 The guidance emphasizes the importance of stress testing “as an ongoing
risk management practice that supports banking organizations’ forward-looking
assessment of risks and better equips them to address a range of adverse outcomes.”
Furthermore, the guidance states that an effective stress testing framework should:
           1) Employ multiple conceptually sound stress testing activities.
           2) Include exercises that are tailored to and sufficiently capture the banking
              organization’s exposures, activities, and risks.
           3) Be forward-looking and flexible.
           4) Include strong governance and effective internal controls.
           5) Produce test results that are clear, actionable, well supported, and inform
              decision-making.

  -
Ex-Im Bank does not conduct portfolio stress testing in a systematic manner. As such,
Ex-Im may not be able to determine whether it is adequately reserving for unforeseen
market conditions. Stress testing would allow Ex-Im Bank to understand how its portfolio
would react to market shocks, particularly given the significant portfolio and single obligor
concentrations.

Recommendation:
   3) Ex-Im Bank should develop a systematic approach to stress testing and
      should conduct stress testing at least annually as part of its re-estimate
      process.

Management Response:
     Ex‐Im Bank agrees with the recommendation. In the past, Ex‐Im Bank has
     conducted ad‐hoc stress tests. Ex-Im Bank is in the process of setting up a
     systematic approach to stress testing to be managed from our Portfolio
     Reporting and Analysis section within the Office of the Chief Financial Officer.
     Ex-Im Bank is currently developing this systematic approach which will be
     completed in early FY 2013. Under this approach, the first stress test will
     focus on the aircraft portfolio. Ex-Im Bank plans to do both a “top down”
     stress test and a “bottom up” stress test.




 24   Board of Governors of the Federal Reserve System, Federal Deposit Insurance Corporation, Office of the
      Comptroller of the Currency, “Guidance on Stress Testing for Banking Organizations with Total
      Consolidated Assets of More Than $10 Billion,” Supervision and Regulation Letter SR 12-7, May 14,
      2012. This publication can be found online at
      http://www.federalreserve.gov/bankinforeg/srletters/sr1207a1.pdf.



                                                                                                           17
      This approach is consistent with the International Association of Credit
      Portfolio Managers report entitled “Sound Practices in Credit Portfolio
      Management”. This stress test will be conducted in FY 2013.

Evaluation of Management’s Response:
      Management’s proposed actions are responsive; therefore, the
      recommendation is resolved and will be closed upon completion and
      verification of the proposed actions.




                                                                                 18
Finding D: Ex-Im Bank does not self-impose portfolio concentration sub-limits
either by industry, geography, or asset class as internal guidance to inform
management on risk and determine exposure fees in new transactions.

                                    -
IACPM states that an institution “should set limits that address concentrations and
correlations within the portfolio.” Although “there is no ideal . . . the objective of a limits
system is to allow an institution to manage its credit exposure in a way that affords
protection from a single credit event [and] limits should be set around correlated positions
or clusters of exposure within the portfolio. Such limits around correlated exposures are
most often expressed in terms of limits by obligor group, industry, and region.”25
The process to set limits “should take into account the size and the nature of the institution,
its strategy, its credit appetite . . . its systems, and its existing level of portfolio
diversification.” For institutions that have a variety of different credit exposures, an
effective limits system, should include notional-based limits “supplemented by risk-based
credit equivalent exposure systems to convert the wide variety of credit exposures into a
single common exposure measure.”26

Finally, the limits system should have a proper governance structure in which limits are
“set and exceptions approved by a group other than the group whose responsibility it is to
manage the portfolio.” The limits should be “viewed as thresholds rather than hard limits”
and the breach of imposed limits should “prompt the appropriate discussion between risk
managers, portfolio managers, the origination team, and, if necessary, the board as to, for
example, the nature of the underlying exposure . . . and the outlook for the obligor, region,
or sector.”27

  -                                                                                       -
Ex-Im Bank does not self-impose any portfolio sub-limits by obligor group, industry, or
region. As noted above, single borrower concentrations are significantly high when
measured against total reserves. For example, Ex-Im Bank’s five largest single borrower
exposures amount to $17.2 billion or 430 percent of total reserves as of March 31, 2012.
Although not directly applicable, it is noteworthy that the one obligor amounts far exceed
the 15 percent maximum threshold suggested by U.S. banking regulators.28 Applying this


 25 Sound Practices in Credit Portfolio Management, International Association of Credit Portfolio Managers,
    November, 2005. This publication can be found online at http://www.iacpm.org/about-
    us/IACPM_Sound_Practices.pdf.
 26 See id.
 27 See id.
 28 Pursuant to FDIC guidelines, “a national bank's total outstanding loans and extensions of credit to one
    borrower may not exceed 15 percent of the bank's capital and surplus, plus an additional 10 percent of
    the bank's capital and surplus, if the amount that exceeds the bank's 15 percent general limit is fully
    secured by readily marketable collateral.” For more information see,
    http://www.fdic.gov/regulations/laws/rules/8000-7400.html.



                                                                                                          19
guideline, Ex-Im Bank’s total one obligor exposure would be limited to approximately
$600 million per borrower or roughly $3 billion in total for the top five.
Credit exposure is highly concentrated by industry as well with three industries (aircraft,
48 percent; manufacturing, 14 percent; and oil and gas, 12 percent) accounting for
74.4 percent of total exposure. Of the three, aircraft accounts for 48 percent of total
exposure in FY 2011, rising to 51 percent as of March 31, 2012.



                          Credit Exposure by Industry



                                 26%
                                                                       Aircraft


                                                       48%             Manufacturing


                                                                       Oil and Gas
                           12%
                                                                       Other

                                       14%




Finally, Ex-Im Bank’s country risk exposure remains concentrated in two geographic
regions, Asia (36.9 percent) and Latin America (22.1 percent). These regions account for
59 percent of the total portfolio at FY 2011.
Monitoring portfolio risk by imposing portfolio sub-limits would allow Ex-Im Bank to
systematically identify and manage its credit exposure thresholds and have the appropriate
discussions between the relevant business units to determine how to appropriately
balance the portfolio. In addition, such sub-limits would inform management on how to
determine exposure fees in transactions that would add to such concentration limits. As
we noted above, for example, although aircraft transactions represent almost 51 percent of
the total dollar out standings of Ex-Im Bank’s balance sheet, each new airline transaction is
structured and priced using the same criteria and minimum pricing guidelines as any other
aircraft transaction without taking into account the incremental portfolio risk in its pricing
criteria.
Sub-limits are not necessarily a mechanism to turn transactions away or to stop financing
transactions involving concentration risk exposure. To the contrary, their intent is to allow
Ex-Im Bank management to be more proactive in its risk management responsibilities and


                                                                                              20
to identify opportunities to diversify its portfolio by emphasizing under-represented
sectors and countries consistent with Ex-Im Bank’s Strategic Plan.

Recommendation:
   4) Ex-Im Bank should implement soft portfolio concentration sub-limits based
      on industry, geography, or asset class as internal guidance to manage risk
      tolerance levels and return parameters. Once exposure fees are in place,
      these guidelines can inform future pricing, risk management decisions, and
      business development new transactions.

Management Response:
     Ex‐Im Bank disagrees with this recommendation to implement soft portfolio
     concentration sub‐limits. While Ex‐Im Bank understands that the private
     sector typically employs portfolio limits in its risk management function,
     doing so is inconsistent with the demand‐driven nature of Ex‐Im’s mandate
     and business. Ex-Im Bank’s long time policy has been to meet demand as
     long as it meets the requirement of a reasonable assurance of repayment.
     Any limits would impede Ex-Im Bank’s ability to meet demand as well as
     adversely impact Ex-Im’s competitiveness compared to other officially
     supported Export Credit Agencies. Ex-Im believes that the implementation of
     portfolio concentration limits whether soft or hard would result in Ex-Im
     Bank picking “winners and losers”. Ex-Im Bank does not believe that this
     role is mandated by our governance structure (i.e. Authorization) which was
     approved by the Congress and signed by the President.
       It is also important to note that the September 2012 implementation of the
       qualitative factors will assist Ex-Im Bank in identifying and managing the
       concentration issues noted in this recommendation.

Evaluation of Management’s Response:
      As mentioned in our report and conveyed separately to management, the
      intent of this recommendation is not to limit Ex-Im Bank’s ability to meet its
      clients’ demands, nor to adversely impact Ex-Im Bank’s competiveness
      compared to other officially supported ECAs. Rather, our recommendation to
      set “soft” limits or “informal thresholds” for portfolio concentration levels is
      designed to inform future pricing and portfolio risk management decisions
      by advising Ex-Im Bank’s Board of Directors of the incremental portfolio
      exposure consequences of each new transaction.
       OIG agrees that the 2012 implementation of qualitative factors will assist Ex-
       Im Bank in managing portfolio concentration issues. However, these factors
       are applied retrospectively to the existing portfolio and will not inform the
       Board on a timely basis.
       Finally, we note that our interviews with other ECAs and federal agencies
       confirm the use of portfolio concentration limits as a pricing and risk
       management tool.
       OIG respectfully requests that Ex-Im Bank management reconsider its
       response to this recommendation. In the interim, OIG will consider this point

                                                                                         21
       as an “open” recommendation or “non-concurrence”. We look forward to
       further dialogue with Ex-Im Bank on this issue.
Finding E: Ex-Im Bank's current risk management framework and governance
structure are not commensurate with the size, scope, and strategic ambitions
of the institution.


U.S. and international financial regulators have long recognized the importance of sound
financial governance and risk management practices as critical to the long term viability of
financial institutions. Indeed, in its Principles for enhancing corporate governance, the
BCBS states:
       “Banks should have an effective internal controls system and a risk
       management function (including a chief risk officer or equivalent) with
       sufficient authority, stature, independence, resources, and access to the
       board. Risk management generally encompasses the process of: identifying
       key risks to the bank; assessing these risks and measuring the bank’s
       exposure to them; monitoring the risk exposures and determining the
       corresponding capital needs on an ongoing basis; monitoring and assessing
       decisions to accept particular risks, risk mitigation measures and whether
       risk decisions are in line with the board-approved risk tolerance/appetite
       and risk policy . . .”29
In particular, BCBS notes that “large banks and internationally active banks” should have a
Chief Risk Officer (CRO), an “independent senior executive with distinct responsibility for
the risk management function and the institution’s comprehensive risk management
framework across the entire organization.” The CRO’s independence should be
“paramount” and the CRO should have “sufficient stature, authority, and seniority within
the organization.” Moreover, BCBS emphasizes that the “risk management function is
responsible for identifying, measuring, monitoring, controlling or mitigating, and
reporting on risk exposures’ including “all risks to the bank, on- and off-balance sheet and
at a group-wide, portfolio, and business line level, and should take into account the extent
to which risks overlap (e.g., lines between market and credit risks and between credit and
operational risk are increasingly blurred).”

   -
During our evaluation, we identified the following deficiencies in Ex-Im Bank’s risk
management function:
           Although Ex-Im Bank has a Credit Risk Officer, it lacks an official responsible for
           managing the full spectrum of risks facing Ex-Im and developing risk
           management strategies, and the requisite staff with the sufficient experience and
           qualifications needed to analyze and manage portfolio risk.


 29 Basel Committee on Banking Supervision, “Principles for enhancing corporate governance”, October
    2010, p. 17. This document can be found online at http://www.bis.org/publ/bcbs176.pdf.



                                                                                                       22
            The lack of an over-arching risk management policy that incorporates portfolio
            management best practices.
            The inability to track the performance of restructured assets over time as a
            separate cohort.
In particular, our evaluation also found the following examples that show a lack of
transparency and governance regarding risk management:
            While Ex-Im Bank does track “Obligors of Concern”, it lacks a comprehensive
            credit metrics dashboard for senior management and the Board of Directors’
            Audit Committee. Credit metrics dashboards are used by banks to summarize
            the most relevant risk metrics, call attention to key areas of concern, and identify
            and potentially mitigate the impact of arising credit risk concerns. Although
            total net losses are provided in monthly reports to senior management, certain
            credit metrics are missing from such reports. For example, OCFO no longer
            publishes the aggregate amount of its impaired assets in its quarterly reports as
            it has in prior years. Indeed, the ratio of impaired assets to current loss reserve
            cushion is not provided. This metric could provide an early warning signal of
            potential deterioration in the portfolio.
            Restructured transactions with Budget Cost Levels (BCL) ratings of 6-8 (an
            indication of the high risk of these transactions) are not currently included in the
            category of impaired assets. Because these BCL ratings imply a higher risk of
            loss, they should be tracked as a separate cohort to monitor performance and
            improve Ex-Im Bank’s empirical data.
            Ex-Im Bank does not seek input from credit policy staff when it restructures
            transactions and assigns a BCL risk rating. Currently, restructured transactions
            are assigned a BCL rating by the Asset Management Division portfolio manager.
            Best practices would suggest that credit policy should have direct participation
            in this process to avoid any conflict of interest.
            Ex-Im Bank’s limited definition of default may result in an understatement of
            Ex-Im Bank’s historical default experience. Ex-Im Bank’s Default Policy limits
            the definition to “the failure to make a required debt or premium payment on a
            timely basis” and does not include the “failure to comply with other conditions in
            the loan agreement”. Although Ex-Im Bank’s current default policies are
            compliant with public Generally Accepted Accounting Principles (GAAP), they do
            not subject troubled borrowers to the same scrutiny as under private sector
            GAAP.30




 30 For example, under Moody's definition of default, a default is said to occur if there is a missed or delayed
    disbursement of interest and/or principal, including delayed payments made within a grace period; the
    company files for bankruptcy, administration, legal receivership, or other legal blocks to the timely
    payment of interest or principal; a distressed exchange occurs, i.e., the borrower offers
    banks/bondholders a new security or a package of securities that represent a diminished financial
    obligation.



                                                                                                             23
           Ex-Im Bank’s asset management personnel actively tracks “obligors of concern”,
           but the review is subjective in nature and not systematic. Moreover, Ex-Im
           Bank’s current IT system does not automatically track compliance with the
           underlying requirements of the credit documentation, such as credit covenants,
           and is unable to provide an ‘early warning’ system for potentially vulnerable
           credits.
           This may result in an understatement of Ex-Im Bank’s historical default
           experience and exposure to potentially vulnerable credits because:
           (i) transactions that were restructured prior to a claim being paid to the
           guaranteed lender or the 180-day window with respect to a direct loan may not
           fall under the definition of a default; (ii) the definition of default used in the
           PD/LGD model focuses on payment default and typically excludes the violation
           of affirmative and certain negative covenants; (iii) the definition of payment
           default excludes other fees due to Ex-Im Bank such as commitment fees; and
           (iv) restructured deals that result in terms that are less favorable to Ex-Im Bank
           may be excluded from the definition of defaulted deals.

  -

As we discussed above, in the last five years, Ex-Im Bank’s risk trends have changed in
several ways, including a decline in total loss reserves, an increase in impaired assets
compared to its total loss reserves, increased portfolio concentrations, and a migration
from sovereign to private sector exposure. At the same time, total portfolio exposure has
grown by 24 percent to $99 billion as of May 2012, compared to $75.2 billion in September
30, 2010. Moreover, Ex-Im Bank’s authority to extend credit has been increased from $100
to $120 billion in FY 2012, and will be raised to $130 billion in FY 2013, and $140 billion in
FY 2014 (provided Ex-Im Bank meets certain criteria). Given this record growth, Ex-Im
Bank must have in place a robust risk management function to handle this increase in a
prudent manner.
During periodic meetings with OCFO, the OIG discussed the above deficiencies as well as
the need to improve both the reporting transparency and IT platform in order to
implement risk management best practices. In addition, the OIG cited several examples of
other federal agencies and institutions that have a CRO to oversee risk policy and
strengthen the risk oversight function. These federal credit agencies and institutions
include the Small Business Administration, the Overseas Oversea Private Investment
Corporation, the U.S. Agency for International Development, the Millennium Challenge
Corporation, the Department of Energy’s Loan Programs Office, the Multilateral Investment
Guarantee Agency (member of the World Bank Group), and the Inter-American
Development Bank. In addition, the OIG shared the results of earlier research on the risk
management practices of other foreign export credit agencies — most of whom have a CRO
to manage the risk management function.31


 31 ECA respondents included Export Development Canada (EDC), SACE, Euler Hermes, Ex-Im Bank,
    Finnvera, Atradius, UK Export Finance (formerly ECGD), Export-Import Bank of Korea (K-Exim), Export
    Guaranty and Insurance Corporation (EGAP), EKF, EKN.


                                                                                                     24
OCFO responded that they would take these observations under advisement.

Recommendation:
   5) Ex-Im Bank should create the position of CRO to oversee the design and
      implementation of an agency-wide risk management function. The CRO
      should have sufficient independence in the organizational structure from the
      business units whose activities and exposures it reviews. Working with Ex-
      Im Bank senior management and the Board of Directors, the CRO would be
      responsible for drafting, presenting, and then implementing approved key
      risk policies including a portfolio risk mitigation policy, a financial model
      governance policy, as well as broader financial governance issues.

Management Response:
     Management disagrees with this recommendation. Ex-Im’s current risk
     management architecture encompasses the functions noted above – but
     includes an important separation of duties between policy‐setting and credit
     risk monitoring post closure. The broad functional divisions are as follows:
     the Credit Risk Management Division, under the leadership of an SVP, Ken
     Tinsley, is responsible for setting the broad credit policies for Ex-Im Bank as
     well as leading the ICRAS sovereign risk rating process and the engineering
     division. This division also reviews certain higher‐risk transactions. Once a
     credit has been approved, responsibility for monitoring credit quality and
     repayment performance shifts to the OCFO, under the leadership of Ex-Im
     Bank’s CFO, David Sena. The OCFO monitors changes in credit quality and
     determines adequate reserve levels.

       The CFO and the SVP of Credit Risk Management serve as Co‐Chairs of
       Ex-Im’s Credit Policy Committee. This Committee sets broad Credit Policy,
       underwriting standards, reviews changes in ICRAS ratings and the Country
       Limitation Schedule, and studies “lessons learned” from Ex-Im Bank’s
       monitoring division such that they can inform credit policy.

Evaluation of Management’s Response:
      Ex-Im Bank faces a broad spectrum of risks in fulfilling its strategic mission.
      Ex-Im Bank’s approach to risk mitigation is largely fragmented and does not
      address the totality of enterprise risk, nor how these risks may interrelate.
      OIG believes that an independent, agency-wide risk assessment is required to
      help set agency wide risk tolerances and risk mitigation policies. OIG
      considers this recommendation as open or “non-concurrence”.

Recommendation:
   6) Ex‐Im Bank’s Board of Directors should amend its by-laws to include the
      oversight of an agency‐wide risk management function covering the full
      range of credit, operational, and other risks.

Management Response:
     Management disagrees with this recommendation. The role of the Board of
     Directors of Ex-Im Bank is set forth in the Charter and does not include the
     recommended oversight function. By way of the Charter, the President of
                                                                                        25
      Ex-Im Bank has broad operational authority for the management of Ex-Im,
      including oversight of all of Ex-Im Bank’s risk management functions – credit,
      operational, and other risks. The by-laws of Ex-Im Bank established an Audit
      Committee responsible for certain activities relating, among other things, to
      Ex-Im Bank's financial statements and independent accountants. In this
      capacity, the Audit Committee may undertake certain projects regarding risk
      management and communicate the findings therefrom to the Chairman and
      President of Ex-Im Bank.

      By way of background, the sections of the by-laws relating to the Audit
      Committee were adopted prior to the appointment of an Inspector General
      for Ex-Im Bank and, as a result, no longer accurately reflect the duties which
      the Audit Committee should have. Having consulted earlier this year with
      Management, the Audit Committee nonetheless elected to keep the current
      by‐laws as they are.

Evaluation of Management’s Response:
      OIG will consider this recommendation as open or “non-concurrence”.
Recommendation:
   7) Ex‐Im Bank should review current risk metrics and reporting procedures
      with a view to enhance transparency and to better inform key stakeholders.

Management Response:
     Ex‐Im Bank does review current risk metrics and reporting procedures.
     Ex-Im Bank policy is to be transparent and open regarding our many
     procedures and policies. Ex-Im Bank will continue, in the future, to review
     current risk metrics and reporting procedures. For example, Ex-Im Bank
     develops and publishes an annual report which is reviewed and audited by
     Ex-Im Bank’s external auditors. This annual report highlights many of Ex-Im
     Bank’s current risk metrics and reporting procedures. Additionally, Ex-Im
     Bank, through the Audit Committee, will identify portfolio management best
     practices. This review, conducted by subject matter experts, is starting in
     September 2012. Consistent with the Re‐Authorization Act of 2012, Ex-Im
     Bank has also developed a comprehensive default report which will be
     reported quarterly to key stakeholders. The first report is, as of September
     18th 2012, currently under review awaiting clearance by the Office of
     Management and Budget. Ex-Im Bank expects to submit this report to key
     stakeholders later this month. These examples and other reviews are used as
     the basis for Ex-Im Bank’s underlying philosophy to continuously seek ways
     to improve upon policies and procedures as well as to maintain transparency
     and better inform key stakeholders. Ex-Im Bank will continue these efforts
     now and in the future.

Evaluation of Management’s Response:
      OIG recognizes Ex-Im Bank’s recent initiatives to improve current risk
      metrics and reporting procedures. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed
      upon completion and verification of the proposed actions.
                                                                                       26
III.   Evaluation Objectives, Scope, and Methodology
The purpose of this evaluation was to ascertain whether Ex-Im Bank’s loss reserve
allocation and portfolio risk mitigation policies are sufficiently robust to support its long-
term growth objectives, while providing an adequate cushion for future credit loses. The
need for a comprehensive review of these policies is driven in large part by Ex-Im Bank’s
significant asset growth over the past five years, changes in the composition of its product
portfolio, the challenging economic environment, Congressional interest and the perceived
absence of policies regarding portfolio risk measurement and mitigation. To this end, the
objectives of the evaluation were:
          To review and assess Ex-Im Bank’s loss reserve allocation and portfolio risk
          measurement policies in light of Ex-Im Bank’s rapid asset growth, balance sheet
          trends, and the challenging economic environment.
          To review portfolio risk management best practices adopted by foreign ECA’s,
          U.S. federal agencies, multilateral financial organizations, and private sector
          financial institutions and benchmark these best practices against Ex-Im Bank’s
          policies and procedures.
          To highlight the areas where Ex-Im Bank performance departs from portfolio
          risk management best practices and to provide specific recommendations for
          future action.
Our research is informed by several principal sources: (i) a review of Ex-Im Bank’s internal
reporting systems and related management reports; (ii) interviews conducted with Ex-Im
Bank staff, ECA peers, U.S. government agencies, and international financial agencies; (iii) a
review of U.S. government accounting practices; and (iv) a review of current literature on
private sector risk management practices as well as U.S. and international banking
regulatory guidance.
Several points of inquiry guided the evaluation:
          What are Ex-Im Bank’s policies and procedures to manage aggregate portfolio
          risk? Do these policies reflect best practices?
          Does Ex-Im Bank conduct scenario analysis on a systematic basis?
          What impact (if any) will Ex-Im Bank’s unique portfolio characteristics and
          current balance sheet trends have on future loss reserve adequacy?
          To what extent do portfolio concentrations and co-variance among industry
          sectors and risk factors present incremental risk to Ex-Im Bank in the event of
          systemic market disruptions?
          How can Ex-Im Bank improve the predictive ability of its loss forecasting model?
          The scope of the evaluation consisted of three phases, each with specific
          deliverables.

Phase I: Planning, Research, Compliance
          Design and organize the program evaluation. Key deliverables include the scope,
          methodology, objectives, timetable, and points of inquiry.


                                                                                            27
Phase II: Research and Analysis
          Review Ex-Im Bank policies and procedures related to portfolio risk
          management and reserve allocation.
          Interview key Ex-Im Bank personnel including Credit Policy Group and OCFO.
          Interview other ECA’s, U.S. federal agencies, and other financial entities to
          establish best practices.
          Research U.S. regulatory guidance from OMB and U.S. banking authorities.
          Research private sector best practices.
Phase III: Verification and Final Report
          Validate the results of the study.
          Produce a final report providing specific recommendations to Ex-Im Bank
          management
The OIG conducted this study during 2011 and 2012 in accordance with generally accepted
inspection standards as defined by The Council of Inspectors General. Those standards
require that we plan and perform the evaluation to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our evaluation
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our objectives.




                                                                                          28
APPENDIX A. SUMMARY OF EX-IM BANK BALANCE SHEET
TRENDS AND RISK FACTORS
Table 1: Ex-Im Bank’s Sovereign vs. Private Exposure
                         FY 2007       FY 2008          FY 2009       FY 2010      FY2011
     Exposure
                        Percentage    Percentage       Percentage    Percentage   Percentage
       Type
                          Total         Total             Total        Total        Total

      Private              58.0          59.5              61.1         67.2         68.6

     Sovereign             42.0          40.5              38.9         32.8         31.4

           Total         100.0%         100.0%           100.0%        100.0%       100.0%

     Source: U.S. Export-Import Bank Annual Report, 2011, p. 46



Table 2: Ex-Im Bank’s Portfolio Exposure to Geographic Regions
                          FY 2007       FY 2008          FY 2009      FY 2010      FY 2011
    Geographical
                         Percentage    Percentage       Percentage   Percentage   Percentage
      Region
                           Total         Total             Total       Total        Total

        Asia                41.8           40.9             41.6         36.8        36.9

    Latin America
                            23.0           23.3             20.9         20.7        22.1
     & Caribbean

       Europe               10.8           11.0             10.1         10.5        12.1

    North America            8.4            8.8              9.0         10.3        10.5

       Oceana                2.4            1.9              2.1          6.1         6.0

       Africa                6.7            6.9              6.7          6.6         5.4

       Other                 6.9            7.2              9.6          9.0         7.0

                Total      100.0%        100.0%           100.0%       100.0%       100.0%
     Source: U.S. Export-Import Bank Annual Report, 2011, p. 46




                                                                                             29
Table 3: Ex-Im Bank’s Portfolio Exposure to Industry Sector
    Percentage of
                         FY 2007          FY 2008         FY 2009          FY 2010          FY2011
      Portfolio

    Air Transport           44.5             47.3            48.8             47.0              48.2

    Manufacturing            7.7              8.4              6.8            11.8              14.0

     Oil and Gas            12.3             12.8            11.8             13.8              12.2

    Power Projects           7.1              6.6              6.5             6.1               7.6

    Other Sectors           28.4             24.9            26.1             21.3              18.0

              Total      100.0%            100.0%          100.0%           100.0%           100.0%

      Source: U.S. Export-Import Bank Annual Report, 2011, p. 46



Table 4: One Obligor Concentrations
                                                          Exposure as                 Exposure as
                             $ Amount Exposure
          Obligor                                      Percentage of Total         Percentage of Total
                                  $90bln
                                                             Assets                 Reserves ($4bln)

           Pemex                   $5.1 billion                 5.7%                     127%

          Ryanair                  $3.8 billion                 4.2%                      95%

          Air India                $3.6 billion                 4.0%                      90%

         PNG LNG                   $3.0 billion                 3.3%                      75%

           Reficar                 $2.7 billion                 3.0%                     67.5%

      Source: U.S. Export-Import Bank Quarterly Report, March 31, 2012, p. 39-42




                                                                                                       30
Table 5: Predictor Interval Levels per Product Line
      Product            2009             2010             2011   2012   2013

     Long Term
                          N/A          unadjusted          95%    85%    80%
     Guarantee

       Medium
        Term              N/A          unadjusted          95%    85%    70%
      Guarantee

       Medium
        Term              N/A          unadjusted          95%    85%    70%
      Insurance

     Short Term
                          N/A          unadjusted          95%    85%    80%
      Insurance

      Source: Internal Ex-Im Bank reports.
      NB: Prior to FY 2011, Ex-Im Bank used the median score




                                                                                31
APPENDIX B. FEDERAL CREDIT REFORM ACT & REGULATORY
FRAMEWORK

   Ex-Im Bank reports under generally accepted accounting principles (GAAP) in the
   United States applicable to federal agencies and is subject to the Federal Credit
   Reform Act of 1990 (FCRA). FCRA was passed by Congress to more accurately
   account for the present value costs of U.S. Government credit programs.
   Ex-Im Bank calculates the probability-weighted loss of each transaction separately,
   following a “bottom up” approach to risk measurement framework as prescribed by
   the FCRA. According to management’s estimates, Post Credit Reform assets
   constitute over 95 percent of Ex-Im Bank’s total portfolio at FY2011. Ex-Im Bank’s
   financial statements are prepared in accordance with Office of Management and
   Budget (OMB’s) Circular A-136, Financial Reporting Requirements, revised as of
   October 27, 2011 issued by OMB. In addition, Ex-Im Bank uses OMB Circular A-11
   as the primary guidance for calculating program costs associated with the its
   transactions, and OMB Circular A-129 for its default policy. These publications do
   not, however, provide specific guidance on portfolio risk matters.
   Following OMB Circular A-11, Ex-Im Bank determines its program costs by
   calculating the net present value of expected cash inflows (receipts) and cash
   outflows (disbursements) related to new authorizations. Receipts typically
   comprise fees, loan principal and interest, while cash disbursements typically
   include claim payments and loan disbursements. A net outflow of expected funds
   results in a program cost or “subsidy”, while.” While a net inflow of expected funds
   results in a “negative subsidy.”
   The FCRA requires measuring the fiscal year subsidy costs of finance programs by
   estimating the cost of each individual transaction on a net present value basis.
   Ex-Im Bank loans, guarantees, and insurance result in a positive subsidy cost, that is
   the Government incurs a cost for extending credits to customers, when the net
   present value of expected cash disbursements (such as claim payments) exceeds the
   expected cash receipts (such as fees or loan principal and interest payments),
   excluding administrative costs. Conversely, when the expected cash receipts exceed
   the net present value of expected cash disbursements the subsidy cost is negative,
   and the transactions generate a positive return to the Government.
   Ex-Im Bank uses an expected loss credit model to determine the appropriate level of
   reserves needed to cover expected losses. The model utilizes an Excel-based, linear
   regression analysis that builds upon Ex-Im Bank’s historical loss and recovery
   experience for each risk rating and product line to determine the loss ratio (LR), the
   percentage loss that Ex-Im Bank can expect for each dollar of loan disbursement or
   guarantee provided. In general, Ex-Im Bank uses historical experience to estimate
   the probability of default as well as the loss given default. The probability of default
   (PD) is the likelihood that a transaction would go into default where the loss given
   default (LGD) gives the estimated loss, net of recoveries and expenses, if a default
   occurred. Multiplying PD times LGD gives the LR.


                                                                                         32
A central component of the FCRA is the Interagency Country Risk Assessment
System (ICRAS). ICRAS is used to determine a common sovereign and non-
sovereign risk rating which all U.S. Government agencies must utilize for their
cross-border loan, guarantee, and insurance programs. ICRAS ratings, also referred
to as budget cost levels (BCLs), reflect the risk that foreign governments and
enterprises will not repay their debts to the U.S. in the medium term. ICRAS rates
countries on the basis of economic, political, and social variables.
Implementing ICRAS required Ex-Im Bank to transition from a cash to an accrual
accounting basis. For each transaction Ex-Im Bank authorizes, a specific subsidy is
calculated on the basis of the transaction’s inherent risks. The subsidy component
of a transaction is determined by the net present value of expected losses (i.e., costs)
and fees (i.e., income) for that particular transaction. The former are largely
determined by the ICRAS rating while the latter are largely determined by the
Organization for Economic Co-operation and Development (OECD) Arrangements
(OECD, 2011) rating. Under credit reform, OMB is responsible for determining the
expected loss rates associated with each ICRAS risk rating and maturity level.




                                                                                     33
APPENDIX C. COMPARISON OF LOSS RESERVE METHODOLOGY
     Approach
                      Incurred Loss           Expected Loss          Fair Value-base             Dynamic
                          Model                  Model                    Model                provisioning
Topic

                   Based on initial        Base on initial         Base on initial          Base on credit risks
Initial            measurement and         measurement and         measurement and          over the full
determination      expected                expected cash flows     expected cash flows      economic cycle
of the effective   (contractual) cash      (including future       (including future        (can relate to assets
interest           flows                   credit losses)          credit losses)           not yet held)
rate(EIR)          (but ignoring future
                   credit losses)
                   Required; indicator-    No trigger              Both indicator and       Agreed rules and
Trigger for        based                   (continual              value-base possible      automatic triggers
impairment         (i.e., evidence to      re-estimation of                                 for build-up and
test               support loss has        expected cash           Trigger is likely to     release of the
                   been incurred)          flows)                  be required              provision
                   Expected cash flows     Continuously            Fair value             Formula driven,
                   reflecting incurred     updated expected        (if less than carrying creating day-one
                   losses discounted at    cash flows reflected    amount)                losses.
                   the original EIR        expected losses
                   (for fixed rates        discounted at the       Including credit         Competent
Measurement        instruments)            original EIR            related changes (e.g.,   authority to
of revised                                 (for fixed rate         liquidity) in fair       determine
carrying                                   instruments)            value                    parameters
amount
                                           No market
                                           adjustments

                                           Includes future
                                           credit losses
                   Reversals required if   Automatically by        Reversals possible       Declines in the
                   triggered by event      adjusting the                                    provision shall be
                   after recognition of    expected cash flows     Could be based on        reflected as a value
                   impairment loss         (no trigger             triggers or value        adjustment
Reversals and                              required)               recovery only            (recognized in P&L
related gains      Up to amortized cost                                                     to offset losses in an
                                           Upper limit is the                               economic
                                           full contractual cash                            downturn)
                                           flows discounted at
                                           the original EIR
    Source: IASB Agenda Paper 5A,”Conparison Between Possible Impairment Approaches”, May 2099.




                                                                                                           34
APPENDIX D. LIST OF ACRONYMS
ALLL              Allowance for Loan and Lease Losses

BCBS              Basel Committee on Banking Supervision

BCL               Budget Cost Level

CDS               Credit Default Swaps

COSO              Committee of Sponsoring Organizations of the Treadway Commission

ECA               Export Credit Agency

Ex-Im Bank        Export-Import Bank of the United States

FCRA              Federal Credit Reform Act of 1990

Federal Reserve   The Board of Governors of the Federal Reserve System

FDIC              Federal Deposit Insurance Corporation

FY                Fiscal Year

GAAP              Generally Accepted Accounting Principles

GAGAS             Generally Accepted Government Accounting Standards

IACPM             International Association of Credit Portfolio Managers

ICRAS             Interagency Country Risk Assessment System

LGD               Loss Given Default

LR                Loss Ratio

OCC               Office of the Comptroller of the Currency

OCFO              Office of the Chief Financial Officer

OIG               Office of Inspector General

OMB               U.S. Office of Management and Budget

PD                Probability of Default

PI                Predictor Interval




                                                                               35
APPENDIX E. REFERENCES
Acharya, V. V., S. T. Bharath, and A. Srinivasan (2003), Understanding the recovery rates on
   defaulted securities, Working paper, London Business School.
Altman, E. I., and E. Hotchkiss (2005), Corporate Financial Distress and Bankruptcy, Third
    Edition, Wiley, New York.
Altman, E. I., B. Brady, A. Resti, and A. Sironi (2005), The link between default and recovery
    rates: theory, empirical evidence and implications, Journal of Business 78,2203{2227.
Basel Committee on Banking Supervision, “Principles for Enhancing Corporate Governance”,
    October 2010, p. 17.
Basel Committee on Banking Supervision, “Report to G20 Leaders on Basel III
    Implementation”, June 2012.
Board of Governors of the Federal Reserve System, “Comprehensive Capital Analysis and
   Review: Objectives and Overview”, March 18, 2011.
Board of Governors of the Federal Reserve System, “Comprehensive Capital Analysis and
   Review 2012: Methodology and Results for Stress Scenario Projections”, March 13, 2012.
   http://www.federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf.
Board of Governors of the Federal Reserve System, Federal Deposit Insurance Corporation,
   Office of the Comptroller of the Currency, “Guidance on Stress Testing for Banking
   Organizations with Total Consolidated Assets of More Than $10 Billion”, SR Letter 12-7,
   May 14, 2012.
Council on Foreign Relations “The Basel Committee on Banking Supervision” July 12, 2012.
Danielsson, Jon et al (2001) “An Academic Response to Basel II” London School of
   Economics Special Paper Series, May 2001
The Economist (2008) “After the Fall” November 15, 2008
Financial Times (2009) “Risk Needs a Human Touch but Models Hold the Whip Hand.” p. 20
    Financial Times (2012) “Basel III Definition”
Frye, J. (2000), Depressing recoveries, Risk Magazine 13, 108{111.
Hillegeist, S. A., E. K. Keating, and D. P. Cram (2004), Assessing the probability of default,
     Review of Accounting Studies 9, 5 34.
Kick, Thomas and A. Pfingsten (2011), The importance of Qualitative Risk Assessment In
    Banking Supervision Before and After The Crisis, Discussion Paper, Deutsche
    Bundesbank
Office of the Comptroller of the Currency, Board of Governors of the Federal Reserve
     System, Federal Deposit Insurance Corporation, National Credit Union Administration,
     Office of Thrift Supervision, Interagency Policy Statement on the Allowance for Loan and
     Lease Losses, December 13, 2006.
Schuermann, T. (2004), What do we know about loss given default. In Credit Risk Models
    and Management, Risk Books, London.


                                                                                                 36
Standard &Poor’s Basel’s Global Quantitative Impact Study Exposes Large Banks’
    Regulatory Capital Shortfall.” December 10, 2010.




                                                                                 37
APPENDIX F. MANAGEMENT RESPONSE




                                   EXPORT-IMPORT BANK
                                  o f the UNITED STATES




                                                          September 18, 2012




       TO:           Alice Albright, Chief Operating Officer

       FROM:         David M. Sena, SVP and Chief Financial Officer
                     Kenneth Tinsley, SVP and Chief Credit Risk Officer

       RE:           Management Response to DIG Report on Portfolio Risk and Loss
                     Reserves Allocation Policies


       Please find attached the Bank's responses to the Office of Inspector General's Report
       on Portfolio Risk and Loss Reserve Allocation Policies. The recommendations in this
       report helped the Bank address Portfolio Risk to improve the Bank's Loss Reserve
       Allocation poliCies. Ex-1m Bank believes in continuous improvement, especially in
       this topic area. As can be ascertained from our responses to this Report, the Bank
       has already addressed a number of the OlG recommendations this year.

       Please find a detailed response to the all recommendations in the DIG Report:

       1] Recommendation:
       Ex-1m Bank should develop a systematic approach to identifying, measuring, pricing,
       and reserving for portfolio risk, including the identification of appropriate
       qualitative risk factors to account and reserve for such risk. Ex-1m Bank should
       incorporate these factors into its loss allowance analysis both retrospectively and
       prospectively. The former will ensure that Ex-1m Bank has properly reserved for
       existing exposure while the later will address future exposure.

       Management Response:
       Ex-1m Bank agrees with the recommendation. Upon the conclusion of the FY 2011
       audit, Ex-1m Bank evaluated the incorporation of qualitative factors as components
       to the overall credit loss factors. Starting in December, 2011, Ex-1m Bank


                        8 11 Ve r mo n t Ave nu e, N.W . Washi n gton, D . C.   20 5 7 1




                                                                                               38
implemented a systematic approach on the development of the Bank's annual credit
loss factors. These credit loss factors incorporate qualitative factors which include
measuring and reserving for portfolio risk. It is currently under review by the
Bank's outside auditors and the Office of Management and Budget (OMB). As of
September 18, 2012, Ex-1m Bank has not received OMB approval on these revised
credit loss factors. Upon approval, the Bank expects to implement these new credit
loss factors in September 2012 as part of the annual re-estimate process.


2] Recommendation:
Together with external subject matter experts, OCFO should design and implement a
formal governance framework for the use of financial models. This framework
should include policies and procedures for model-validation including external
validation of the model's integrity, model ownership and testing.



Management Response:
Ex-1m Bank agrees with the recommendation. Upon the conclusion of the FY 2011
audit, Ex-1m began the process of designing and implementing a formal governance
framework on the Bank's financial models. As part of this process, in May 2012, Ex-
1m Bank contracted with KPMG to review, assess, and evaluate the Bank's
qualitative factors developed this year. KPMG served as external subject matter
experts providing review, analysis, and feedback. Consistent with the KPMG review,
Ex-1m Bank will incorporate external validation of future financial models. It is also
important to note that the overall model is currently under evaluation and review
by both the Bank's outside auditors as well as the Office of Management and Budget.
This review occurs on an annual basis. Ex-1m Bank, as part of its efforts to
continuously improve, will build and strengthen the formal governance framework
related to the financial models.


31 Recommendation:
Ex-1m Bank should develop a systematiC approach to stress testing and should
conduct stress testing at least annually as part of its re-estimate process.

Management Response:
Ex-1m Bank agrees with the recommendation. In the past, Ex-1m Bank has
conducted ad-hoc stress tests. The Bank is in the process of setting up a systematic
approach to stress testing to be managed from our Portfolio Reporting and Analysis
section within the Office of the Chief Financial Officer. The Bank is currently
developing this systematic approach which will be completed in early FY 2013.




                                                                                         39
Under this approach, the first stress test will focus on the aircraft portfolio. The
Bank plans on doing both a "top down" stress test and a "bottom up" stress test.
This approach is consistent with the International Association of Credit Portfolio
Managers report entitled "Sound Practices in Credit Portfolio Management". This
stress test will be conducted in FY 2013.


4] Recommendation:
Ex-1m Bank should implement soft portfolio concentration sub-limits based on
industry, geography, or asset class as internal guidance to manage risk tolerance
levels and return parameters. Once exposure fees are in place, these gUidelines can
inform future pricing, risk management decisions, and business development new
transactions.

Management Response:
Ex-1m Bank disagrees with this recommendation to implement soft portfolio
concentration sub-limits. While Ex-1m Bank understands that the private sector
typically employs portfolio limits in its risk management function, doing so is
inconsistent with the demand-driven nature of Ex-1m's mandate and business.
The Bank's long time policy has been to meet demand as long as it meets the
requirement of a reasonable assurance of repayment. Any limits would impede the
Bank's ability to meet demand as well as adversely impact Ex-1m Bank's
competitiveness compared to other officially supported Export Credit Agencies. The
Bank believes that the implementation of portfolio concentration limits whether soft
or hard would result in the Bank picking "winners and losers", The Bank does not
believe that this role is mandated by our governance structure (Le. Authorization)
which was approved by the Congress and signed by the President.

It is also important to note that the September 2012 implementation of the
qualitative factors will assist the Bank in identifying and managing the
concentration issues noted in this recommendation.


51 Recommendation:
Ex-1m Bank should create the position of CRa to oversee the design and
implementation of an agency-wide risk management function. The eRa should have
sufficient independence in the organizational structure from the business units
whose activities and exposures it reviews. Working with Ex-1m Bank senior
management and the Board of Directors, the CRa would be responsible for drafting,
presenting, and then implementing approved key risk policies including a portfolio
risk mitigation policy, a financial model governance policy, as well as broader
financial governance issues.




                                                                                       40
Management Response:
Management disagrees with this recommendation, Ex' lm's current risk management
architecture encompasses the functions noted above - but includes an important
separation of duties between policy-setting and credit risk monitoring post closure.
The broad functional divisions are as follows: The Credit Risk Management
Division, und er the leadership of an SVP, Ken Tinsley, is responsible for setting the
broad credit policies for the bank as well as leading the leRAS sovereign risk rating
process and the engineering division. This division also reviews certain higher-risk
transactions. Once a credit has been approved, responsibility for monitoring credit
quality and repayment performance shifts to the aero, under the leadership of the
Bank's CFO, David Sena. The OCFO monitors changes in credit quality and
determines adequate reserve levels.

The CFO and the SVP of Credit Risk Management serve as Co-Chai rs of Ex-1m's
Credit Policy Committee. This Committee sets broad Credit Policy, underwriting
standards, reviews changes in rCRAS ratings and the Country Limitation Schedule,
and studies "lessons learned" from the Bank's monitoring division such that they
can inform credit policy.

6]   ~ecommendation:
Ex-1m Bank's Board of Directors should amend its bylaws to include the oversight of
an agency-wide risk management function covering the full range of credit,
operational, and other risks.

Management Response:
Management disagrees with this recommendation. The role of the Board of
Directors of the Bank is set forth in the Charter and does not include the
re commended overSight function. By way of the Charter, the President of Eximbank
has broad operational authority for the management of the Bank, including
overSight of all of the Bank's risk management functions - credit, operational, and
other risks. The Bylaws of the Bank established an Audit Committee responsible for
certain activities relating, among other things, to the Bank's financial statements and
independent accountants. In this capacity, the Audit Committee may undertake
certain projects regarding risk management and communicate the findings
therefrom to the Chairman and President of the Bank.

By way of background, the sections of the Bylaws relating to the Audit Committee
were adopted prior to the appo intment of an Inspector General for the Bank and, as
a result, no longer accurately reflect the duties which the Audit Committee should




                                                                                          41
have. Having consulted earlier this year with Management, the Audit Committee
nonetheless ejected to keep the current By-Laws as they are.

7) Recommendation:
Ex-1m Bank should review current risk metrics and reporting procedures with a
view to enhance transparency and to better inform key stakeholders.

Management Response:
Ex-1m Bank does review current risk metrics and reporting procedures. Ex-1m Bank
policy is to be transparent and open regarding our many procedures and policies.
The Bank will continue, in the future, to review current risk metrics and reporting
procedures. For example, the Bank develops and publishes an annual report which
is reviewed and audited by the Bank's external auditors. This annual report
highlights many of the Bank's current risk metrics and reporting procedures.
Additionally, the Bank, through the Audit Committee, will identify portfolio
management best practices. This review, conducted by subject matter experts, is
starting in September 2012. Consistent with the Re-Authorization Act of 2012, the
Bank has also developed a comprehensive default report which will be reported
quarterly to key stakeholders. The first report is, as of September 18 th 2012,
currently under review awaiting clearance by the Office of Management and Budget.
The Bank expects to submit this report to key stakeholders later this month. These
examples and other reviews are used as the basis for the Bank's underlying
philosophy to continuously seek ways to improve upon policies and procedures as
well as to maintain transparency and better inform key stakeholders. The Bank will
continue these efforts now and in the future.

As you can see from the responses to the 7 recommendations, the Bank has made
significant progress in addressing the recommendations. At your direction, we
would be happy to review and update the OIG on our progress. Ex-1m Bank
appreciates the open and collaborative nature of this report and looks forward to
working with the OIG in the future on this topic area.



Cc:    Fred Hochberg, President and Chairman, Export Import Bank of the U.S.




                                                                                      42
Acknowledgements
This report was prepared by Mark S. Thorum; Assistant Inspector General for Inspections
and Evaluations; Office of Inspector General for the Export-Import Bank of the United
States.




                                                                                      43
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
